           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific re-
quirements for semiannual reports to be made to the Chairman for transmittal to the Con-
gress. A selection of other statutory and administrative reporting and enforcement respon-
sibilities and authorities of the Office of Inspector General (OIG) are listed below:

                    OIG AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97-255    Federal Managers’ Financial Integrity Act of 1982
P.L.          1041-34       Debt Collection Improvement Act of 1996
P.L.          101-576       Chief Financial Officers Act of 1990
P.L.          102-486       Energy Policy Act of 1992
P.L.          103-62        Government Performance and Results Act of 1993
P.L.          103-355       Federal Acquisition Streamlining Act of 1994
P.L.          103-356       Government Management Reform Act of 1994
P.L.          104-106       Information Technology Management Reform Act of 1996
P.L.          104-208       Federal Financial Management Improvement Act of 1996
General Accounting Office Government Auditing Standards

            CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                     United States Code, section 552a
Title 18                    United States Code, sections on crime and criminal
                            procedures as they pertain to OIG’s oversight of departmental
                            programs and employee misconduct
Title 31                    United States Code, section 3729 et seq., the False Claims Act
                                                                     ig
                                                April 2003 SemiAnnual Report




                                           TABLE OF CONTENTS
                                                                                                                                             Page
COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                                  1
 The President’s Management Agenda . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  1
 Management Challenge: Competitive Sourcing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                         2
 Management Challenge: Improved Financial Performance . . . . . . . . . . . . . . . . . . . . .                                                     3
 Management Challenge: Budget and Performance Integration . . . . . . . . . . . . . . . . . .                                                       4
 Management Challenge: Expanded Electronic Government . . . . . . . . . . . . . . . . . . . . .                                                     5
 Management Challenge: Strategic Management of Human Capital . . . . . . . . . . . . .                                                              6

COMMISSION’S ORGANIZATIONAL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . . .                                                             9

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   13
 Audit Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           13
 Summary of Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         13
  Audit of the U.S. International Trade Commission’s Purchase Card Program,
   Audit Report OIG-AR-01-03 (January 28, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                          13

AUDIT FOLLOW-UP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    15
 Evaluation of the U.S. International Trade Commission’s Information Security
  Program and Practices, Audit Report OIG-AR-02-02 (September 13, 2002) . . . . .                                                                  15
 Evaluation of the Commission’s Travel Program, Audit Report
  OIG-AR-03-02 (September 30, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  17
 Evaluation of the USITC’s Records Management, Audit Report
  OIG-AR-05-00 (March 7, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           17
 Evaluation of the Commission’s Implementation of E-FOIA, Audit Report
  OIG-AR-01-01 (March 20, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              18

INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            19
  Inspection Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               19
    U.S. International Trade Commission’s Occupant Emergency Program,
      Inspection Report OIG-IR-01-03 (March 28, 2003) . . . . . . . . . . . . . . . . . . . . . . . . .                                            19
  Actions on Prior Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   20

INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  Misuse of Government Travel Card . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                                                                          i
                                                                 ig
                                              April 2003 SemiAnnual Report




                           TABLE OF CONTENTS-Continued
                                                                                                                                      Page

OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            22
 Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      22
 General Accounting Office (GAO) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    22
 Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   22
 Management Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              24

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

TABLE 1 AUDIT REPORTS WITH QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . 26

TABLE 2 AUDIT REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28




                                                                      ii
                                       ig
                           April 2003 SemiAnnual Report




                    COMMISSION’S TOP
                 MANAGEMENT CHALLENGES
For several years the Office of Inspector General (OIG) has included in the Semiannual
Report to Congress a discussion of the “Top Management Challenges” facing the
International Trade Commission (Commission). In the Semiannual Report for the period
ending September 30, 2002, we identified the following three challenges:
      j Performance Management, Measurement and Accountability
      j Information Technology Management and Security
      j Human Capital and Staffing
Beginning with the Semiannual Report for the period ending March 31, 2003, we will
discuss these and other challenges within the framework of the President’s Management
Agenda (PMA). The “Top Management Challenges” facing the Commission as identified
by the OIG—as well as recent OIG activities relating to each challenge—are discussed
below. Through audits, inspections and other assistance, the OIG has been helping the
Commission to address these challenges.


                 The President’s Management Agenda
In summer 2001, the President announced the PMA that included five somewhat
interrelated Government-wide initiatives: (1) Competitive Sourcing, (2) Improved
Financial Performance, (3) Budget and Performance Integration, (4) Expanded Electronic
Government, and (5) Strategic Management of Human Capital. The Executive Branch
Management Scorecard tracks how well the departments and major agencies are executing
the five initiatives. Using a Stoplight Scoring System, the scorecard employs a simple
grading system:
      j Green for success,
      j Yellow for mixed results, and
      j Red for unsatisfactory.




                                         1
                                          ig
                             April 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
OMB assesses agency “progress” against agreed upon deliverables and time lines
established for the five initiatives as follows:
       j Green: Implementation is proceeding according to plans agreed upon with the
         agency;
       j Yellow: Some slippage or other issues require the agency to adjust in order to
         timely achieve the initiative objectives; and
       j Red: The initiative is in serious jeopardy, and the agency likely will not realize
         objectives absent significant management intervention.
The Commission was not among the initial PMA agencies and has not established PMA
deliverables and time lines. However, the Commission’s fiscal year (FY) 2004 Budget
Justification, as well as its strategic planning documents, expressed the Commission’s
commitment to the five PMA initiatives as discussed below.
Management Challenge: Competitive Sourcing. To improve the performance and
efficiency of activities that are commercial in nature, the PMA calls for departments and
agencies to compare their commercial activities with those of the private sector and
determine whether the private sector or government employees perform the activity. The
intended outcome is better service at a lower price. Thus far, few agencies are viewed as
having progressed from red.
In November 2002, OMB proposed a revision to OMB Circular No. A-76, “Performance of
Commercial Activities.” If implemented, the OMB Circular would provide guidance on
assessing the benefits and effectiveness of competitive sourcing.
The OIG has not assessed the Commission’s current level of success in implementing
competitive sourcing in terms of red, yellow or green. However, the Commission has
competitively contracted for information technology services, certain publishing services,
mailroom and general labor services, cleaning and building maintenance services, and
security services. Private sector contract employees comprise more than 10 percent of
on-site personnel. In addition, other services are acquired on an as-needed basis, such as
virtually all equipment maintenance services, application systems design and
development, and certain audit and financial services. For example, the OIG contracts for
audit services.
The Commission has stated that its permanent staff is devoted to core agency investigative
functions and recurring support activities where the cost of outsourcing is less competitive.
In June 2002, the Commission issued its fifth comprehensive list of commercial activities

                                             2
                                                   ig
                                    April 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
consistent with the Federal Activities Inventory Reform (FAIR) Act. The Commission has
said that it will continue to evaluate competitive alternatives and efficient service
contracting options to maximize efficiency and minimize cost.
Management Challenge: Improved Financial Performance. This initiative is to
improve the quality and timeliness of financial information so that it can be used to reduce
waste, fraud, and abuse and manage federal programs more effectively. Most major
departments and agencies passed their FY 2002 financial audits, and a number of smaller
agencies—including the Commission—will now begin to prepare audited financial
statements in accordance with the Accountability of Tax Dollars Act of 2002 (Public Law
107-289). The deadline for FY 2004 financial statements has been accelerated to November
15th—just 45 days after the end of the fiscal year.
The OIG has not assessed the Commission’s current level of financial performance in terms
of red, yellow or green. The OIG competitively contracted for audit services to assist in
reviewing the Commission’s financial management controls and will issue a report during
Third Quarter FY 2003. We also have been working with the Director, Office of
Administration, and his staff to ensure that the Commission prepares financial statements
as agreed with the OMB.
In FY 2002, the key components of the Commission’s total budget were personnel
(approximately 73.1 percent) and rent (approximately 9.3 percent). Staffing levels have
declined by 20 percent in the last 10 years, resulting largely from a 10 percent
reduction-in-force in FY 1996 and decisions not to fill certain vacancies. General
administrative costs of the Office of Administration (Human Resources, Facilities
Management, and Finance) account for less than 7 percent of total labor costs, and
administrative staffing levels have been reduced by 45 percent since FY 1996.
The Commission does not administer benefits and assistance payments programs and, as
such, would have few problems related to improper payments. Commission payments are
tied to Commission payroll and standard nonpersonnel costs such as space rental, travel,
training, services, supplies and equipment. Commission staff and senior managers monitor
execution of the Expenditure Plan, and the Office of Finance reviews payment procedures.
Also, the OIG has addressed aspects of payment procedures during the past two
information security audits1 as well as the current, ongoing financial management control
audit.

     1 Evaluation of the U.S. International Trade Commission’s Information Security Program, OIG-AR-02-01
(September 10, 2001), http://www.usitc.gov/oig/OIG-AR-02-01.pdf .Evaluation of the U.S. International Trade
Commission’s Information Security Program and Practices, OIG-AR-02-02 (September 13, 2002),
http://www.usitc.gov/oig/OIG-AR-02-02.pdf.


                                                       3
                                          ig
                             April 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
Management Challenge: Budget and Performance Integration. The FY 2004
Federal Budget published ratings and detailed assessments of 234 federal
programs—approximately one-fifth of the entire federal government, representing $494
billion in spending. When making Budget decisions, OMB used the Performance
Assessment Rating Tool (PART) to view how well federal programs were performing and
whether managers were held accountable for performance. OMB hopes to examine another
20 percent of programs for FY 2005, and 100 percent of federal programs by FY 2009.
Performance information will be used to (1) end or reform programs that either cannot
demonstrate positive results or are clearly failing and (2) put resources in programs that
can prove they are successful.

The OIG has not assessed the Commission’s current level of success in integrating budget
and performance in terms of red, yellow or green. However, in the September 30, 2002,
Semiannual Report to Congress, the OIG identified as one of the Commission’s top
management challenges: Performance Management, Measurement and Accountability.
Last year’s audit of the Commission’s Research Program made recommendations to
improve the planning of research projects by setting priorities and measuring projects to
make the most effective use of human resources.

Since FY 2000, the Commission has accelerated efforts to link budgeting with strategic
planning. Budget formulation and execution activities have been restructured to permit
the allocation of virtually all costs to one of the five operations set forth in the Strategic
Plan. Specifically, because personnel costs are more than 70 percent of total costs, the
Commission uses the labor cost reporting system to collect work years and cost information
and attribute it directly to strategic operations when feasible. Since FY 2001, the
Commission’s Budget Justification has presented cost and workload information in a
format that aligns direct and indirect costs with operations in the Strategic Plan.

In the Commission’s budget, all indirect costs are allocated to the Commission’s five
operations with the exception of the OIG activities, certain labor and union activities, and
certain nonpersonnel costs. These are reported as unallocated indirect costs. The
Commission also presents data using a budget object classification methodology used in
prior Budget Justifications. Further refinements to the labor cost system are under active
consideration in FY 2003. Budget integration efforts to date have allowed Commission
managers more effectively to track changes in workload and compare them to changes in
cost. In doing so, the Commission is able to determine whether resources are being
allocated efficiently. The performance goals and indicators in the Commission’s Annual
Performance Plan also provide measures by which the agency’s activities can be assessed.

                                             4
                                         ig
                             April 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

Management Challenge: Expanded Electronic Government. The Expanded Elec-
tronic Government Initiative is designed to bring more services to the American citizen
over the Internet, make government more efficient, and improve information technology
(IT) management throughout the Executive Branch. Agencies continue to manage their IT
within a framework the Administration set up to fix problems before investments are made
and taxpayer dollars lost. Agencies must demonstrate that their projects will provide
significant value to the mission, have a reasonable likelihood of success in meeting goals
and objectives, incorporate sufficient IT security, help achieve the PMA, and not duplicate
other investments. Unfortunately, almost half the modernization projects have insufficient
IT security, and the Administration intends not to let any such projects go forward without
it. There is also a shortage of qualified project managers and IT architects to successfully
manage federal IT investments. Out of the $59 billion in IT investments, 771 projects
representing $20.9 billion are currently on an “At-Risk List,” meaning they do not
successfully demonstrate sufficient potential for success through the business case, or do
not adequately address IT security.

The OIG has not assessed the Commission’s current progress in expanding electronic
government in terms of red, yellow or green. However, the OIG’s prior Semiannual Report
to Congress identified as one of the Commission’s top management challenges: Information
Technology Management and Security. Every Commission business process—
investigations, trade policy studies, technical assistance, and administration—depends on
reliable and effective information systems and services. The information that the
Commission processes and generates is a valuable asset that management must protect
from loss, misuse, unauthorized access or modification. The challenge the Commission
faces in providing such protection is how to apply adequate resources to ensure sufficient
information security. Although much of this information is in electronic form, it resides in
a variety of hardware platforms and software applications, accessible through various
communications links. Although the Commission has avoided work disruption or losses due
to cyber-crime, the Commission’s data could be susceptible both to physical and electronic
threats.

Congress enacted the Government Information Security Reform Act (GISRA) in 2000, and
the Federal Information Security Management Act in 2002, to help federal organizations
protect government information resources. Each agency must centralize information
security management under its Chief Information Officer (CIO), as the Commission did in
FY 2003. The need for centralized information security management results, in part, from
the highly interconnected nature of modern information systems.

                                            5
                                           ig
                              April 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

Agency Inspectors General are to conduct an annual independent evaluation of agency
information security programs and practices. Accordingly, we conducted comprehensive
audits of the Commission’s information security program in FY 2001 and FY 2002 (open
recommendations are summarized on pages 13 and 14). We plan to further evaluate
selected aspects of the Commission’s information security program in FY 2003, and have
advised the Commission that failure sufficiently to address persistent problems this year
likely would be reported as a material weakness in this third information security audit.

In addition to information security measures, the Commission has committed significant
resources to electronic government initiatives such as an Electronic Document Imaging
System (EDIS) and DataWeb. In FY 2001, the Commission completed a hardware capacity
expansion that allowed it to make DataWeb continuously available to the general public.
In FY 2003, the Commission replaced the original EDIS system with a new system that has
increased functionality and promises significant cost savings to external users.

In FY 2003, the Commission also plans to replace its local area network. In FY 2004, if
funding is available, this effort will include development of a new capability for providing
secure Web access to non-public data by specific authorized external customers. These
initiatives are part of the Commission’s Information Resource Management (IRM)
Strategic Plan. Consistent with this plan, IT projects are evaluated and prioritized in
accordance with their contribution to the agency’s overall Strategic Plan and the meeting
of performance goals.

Management Challenge: Strategic Management of Human Capital. Facing
substantial prospective retirements, agencies must hire and retain people with needed
skills and hold them accountable for serving customers and stakeholders. OMB considered
20 agencies “green” for progress, meaning they had plans in place to assess their workforce
and to use every tool at their disposal to recruit and retain the workforce they need to fulfill
their missions.

The OIG has not assessed the Commission’s strategic management of human capital in
terms of red, yellow or green. However, in our last Semiannual Report to Congress the OIG
identified as one of the Commission’s top management challenges: Human Capital and
Staffing. Last year, the OIG assessed the Commission’s family-friendly programs—those
programs promoted by the Office of Personnel Management’s Office of Family-Friendly
Advocacy—in terms of their compliance with statutory and executive level guidance and
whether they meet the needs of Commission employees. In our inspection report

                                              6
                                          ig
                             April 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
Assessment of the Commission’s Family-Friendly Programs, Inspection Report,
OIG-IR-06-01 (March 27, 2002) http://www.usitc.gov/oig/OIG-IR-06-01.pdf, we
commended the Commission’s progress in implementing most of these programs and
suggested that the Commission use survey results to enhance programs to meet employee
needs. On September 24, 2002, the Commission’s Labor Management Partnership Council
sponsored several family-friendly initiatives in reference to our inspection report. The
Commission subsequently approved:
       j work schedules starting as early as 6:00 am, to lessen commuter traffic and to
         allow parents to be home when school is over;
       j a 4-4/10 work schedule to give employees greater flexibility;
       j further enhancements to encourage telecommuting; and
       j annual surveys of employee needs and improved orientation for new employees.
In March 2003, the Commission authorized still greater flexibility for employees to work
a wide variety of schedules. Planned upgrades to the local area network should support the
Commission’s efforts to expand employee participation in the Commission’s telecommuting
program (instituted in March 2001) and bolster plans to integrate telecommuting
capabilities and procedures with continuity of Government planning.

As previously noted, human capital is the Commission’s largest resource, with salaries and
personnel benefits representing approximately 72 percent of the FY 2003 budget. The
Commission maintains an expert staff of professional international trade and
nomenclature analysts, investigators, attorneys, economists, computer specialists and
administrative support personnel. All employees are located at 500 E Street, SW,
Washington, DC 20436. At the end of FY 2003, the Commission employed a total of 365.6
permanent employees.
Thirty-four percent of the Commission’s workforce is eligible to retire in the next 5 years.
The Commission may realign resources as priorities shift, but the cost of the current
staffing level is increasing at a rate faster than appropriation levels as the number of Civil
Service Retirement System employees decreases and the number of Federal Employees
Retirement System employees increases. Thus, the Commission must streamline human
resource processes, review how it utilizes staff, and develop a better understanding of the
relationship between human resources and financial resources to ensure that the
Commission builds, deploys, and sustains a skilled, flexible, high-performing workforce. In
FY 2004, the Commission will focus on:

                                             7
                                 ig
                     April 2003 SemiAnnual Report




j Leadership and Knowledge Management. In FY 2003, the Commission
  periodically will survey employees regarding workplace issues. The Chairman
  and Vice Chairman have conducted listening sessions with small groups of
  employees to obtain first-hand knowledge of workplace issues. During FY 2003,
  the Commission will conduct a strategic workforce planning initiative to analyze
  employee skills and identify any current or future skills gaps. In FY 2004, the
  Commission plans to work on an agency-wide strategy for linking assessed skill
  gaps to training curriculum and development initiatives.
j Workforce Planning and Deployment. Currently, the Commission is
  reviewing position management to improve organizational effectiveness and
  align resources with workload and mission. During FY 2002, in fulfillment of the
  requirements of the Clinger-Cohen Act, the Commission established the CIO
  position. During FY 2003, the Commission realigned its IT resources to support
  its evolving mission, the implementation of electronic business, and other IT
  initiatives. Innovative realignment of resources and strategic position
  management should continue in FY 2003 as the Commission redeploys existing
  resources to meet the surge in workload resulting from sunset investigations.
j Strategic Alignment. During FY 2003, the Commission intends to develop a
  human capital management plan that establishes human capital goals and
  objectives that link to the Commission’s Strategic Plan. Taking a long view, the
  Commission will reflect how human capital supports mission achievement.
  Beginning in FY 2004, the Commission will move towards emphasizing
  performance-based accountability for senior managers.




                                    8
                                                                                                  ig
                                                                         April 2003 SemiAnnual Report




                                              COMMISSION’S ORGANIZATIONAL STRUCTURE

                                                        U.S. International Trade Commission




                                                                                     Chairman

                                                                                 COMMISSION




 Office of the          Office of the                                     Office of                   Chief               Office of               Office of the           Office of
                                                Office of the                                                                                                              Equal
Administrative           General                Director of               External                Information           the Director of            Inspector
 Law Judges              Counsel                                          Relations                  Officer            Administration              General              Employment
                                                Operations                                                                                                               Opportunity

                                                                         Trade Remedy
                                                                        Assistance Office                                                     Employee
                                                                                                                                             Development



 Office of           Office of               Office of              Office of           Deputy CIO               Deputy                Office of                               Office of
                                                                       the                 for                   CIO for                Human                    Office of     Facilities
Economics            Industries           Investigations
                                                                    Secretary           Management              Planning               Resources                 Finance      Management




                            Office of                  Office of
                          Tariff Affairs                                        Office of                  Office of
                                                     Unfair Import
                           and Trade                                           Publishing                Information
                                                     Investigations
                          Agreements                                                                       Services

             Budget Committee                                                                                     Information Resources Management Steering Committee (IRMSC)
                Authority: Adm. Order 00-06, dated 7/26/00                                                           Authority: Adm. Order 00-08, dated 8/25/00

                                                                                                                  Labor-Management Occupational Safety and Health Committee
             Directives Review Committee                                                                            Authority: Adm. Order 02-03, dated 1/10/02
                 Authority: CO71-U-004, dated 7/11/97

             Document Imaging Oversight Committee (DIOC)                                                          Labor-Management Partnership Council
                Authority: Adm. Order 96-06, dated 3/15/96                                                          Authority: Adm. Order 03-05, dated 2/11/03

             Executive Resources Board (ERB)                                                                      Strategic Planning Committee (SPC)
                Authority: Adm. Order 02-10, dated 9/12/02                                                           Authority: Adm. Order 02-08, dated 5/3/02

             Incentive Awards Committee (IAC)                                                                     Senior Executive Service Performance Review Board (PRB)
                 Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96                     Authority: Adm. Order 02-09, dated 7/15/02


                                                                                                     9
                                        ig
                            April 2003 SemiAnnual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov
The Commission is an independent, nonpartisan, quasi-judicial federal agency established
by Congress to provide trade expertise to both the Legislative and Executive Branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a
fair and objective manner; provide the President, USTR and the Congress with
independent, quality analysis, information, and support on matters of tariffs and
international trade and competitiveness; and maintain the Harmonized Tariff Schedule of
the U.S. In so doing, the Commission serves the public by implementing U.S. law and
contributing to the development of sound and informed U.S. trade policy. Major
Commission activities include:

       j Import Injury Investigations-The Commission makes determinations in a
         variety of import injury investigations, primarily antidumping and
         countervailing duty (AD/CVD) investigations concerning the effects of unfairly
         traded imports on a U.S. industry.

       j Intellectual Property-Based Investigations-The Commission adjudicates
         complaints brought by domestic industries under section 337 of the Tariff Act
         of 1930 that allege infringement of U.S. intellectual property rights and other
         unfair methods of competition by imported goods.

       j Research-The Commission’s research program consists of probable economic
         effects investigations under section 131 of the Tariff Act of 1930; analysis of
         trade and competitiveness issues under section 332; and independent
         assessments on a wide range of emerging trade issues.

       j Trade Information Services-The Commission’s trade information services
         include such activities as trade remedy assistance; library services; legislative
         reports; maintenance of the Harmonized Tariff Schedule; Schedule XX; U.S.
         Schedule of Services Commitments under the General Agreement on Tariffs and
         Trade/World Trade Organization; preparation of U.S. submissions to the
         Integrated Database of the World Trade Organization; and certain other
         information gathering, processing, and dissemination activities.

       j Trade Policy Support-The Commission supports the formulation of U.S.
         trade policy, providing objective input to both the Executive Branch and the
         Congress on the basis of the distinctive expertise of its staff.

                                           10
                                         ig
                             April 2003 SemiAnnual Report




COMMISSION PROFILE—Continued
The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2-year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.
During the reporting period, Commissioner Lynn M. Bragg’s term expired on June 16,
2002. Ms. Bragg had been appointed to the Commission by former President Clinton in
March 1994. With her departure, we are left with two vacant Commissioners’ positions.
The current Commissioners are Deanna Tanner Okun, Jennifer A. Hillman, Marcia E.
Miller, and Stephen Koplan. The current Chairman is Deanna Tanner Okun and the
current Vice Chairman is Jennifer A. Hillman.
In FY 2003, the Commission has an estimated $54.2 million in available funds ($54 million
appropriation and $200,000 carryover) and a staffing plan for 397.5 permanent positions
and 6.5 term/temporary positions. All employees are located in one building at 500 E Street,
SW, Washington, DC.




                                            11
                                            ig
                              April 2003 SemiAnnual Report




              THE OFFICE OF INSPECTOR GENERAL
                     http://www.usitc.gov/oig
The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman. The Inspector
General is responsible for directing and carrying out audits, investigations, and inspections
relating to Commission programs and operations. The Inspector General also provides
comments and recommendations on proposed legislation, regulations, and procedures as
to their economy, efficiency and effectiveness.
As shown in the organizational chart, the OIG had three full-time positions and one
part-time position in FY 2003.
For FY 2003, the OIG was allocated 3.5 staff years. This provided for three full-time
positions (Inspector General, Assistant Inspector General for Audit, and Paralegal
Specialist) and one part-time position (Counsel to the Inspector General). The Commission
also allocated $140,000 for OIG contracted audit and review services for FY 2003. Under
the Commission’s summer intern program, the OIG plans to hire one summer intern for a
term of 10 weeks.


                          Office of Inspector General: Organization
  Full-time

          Inspector General



                                                                              Part-time

    Assistant Inspector
                              Paralegal Specialist                      Counsel to the
     General for Audit
                                                                      Inspector General




                                               12
                                        ig
                            April 2003 SemiAnnual Report




                                     AUDITS

                              Audit Report List
We issued one audit report during this period:

       j OIG-AR-01-03, Audit of the U.S. International Trade Commission’s Purchase
         Card Program (see page 13)

Generally, the Commission made progress implementing pending actions recommended in
the following reports since issuance of our last Semiannual Report:

       j OIG-AR-02-02, Evaluation of the U.S. International Trade Commission’s
         Information Security Program and Practices (see page 15)

       j OIG-AR-03-02, Evaluation of the Commission’s Travel Program (see page 17)
       j OIG-AR-05-00, Evaluation of USITC’s Records Management (see page 17)

       j OIG-AR-01-01, Evaluation of the Commission’s Implementation of E-FOIA
         (see page 18)


                          Summary of Significant Audits
Audit of the U.S. International Trade Commission’s Purchase Card Program,
OIG-AR-01-03 (January 28, 2003) http://www.usitc.gov/oig/OIG-AR-01-03.pdf
Using government-sponsored purchase cards helps streamline procurement actions by
reducing the use of Purchase Orders and Blanket Purchase Agreements and eliminating
Imprest Funds.

At the Chairman’s request and in response to heightened interest by Congress and OMB,
the OIG audited the Commission’s Purchase Card Program to determine if internal
controls were sufficient to monitor and adequately control expenditures. Between
February 2001 and February 2002, the Commission issued purchase cards to 18 of its
employees and had approximately 1,441 purchase card transactions totaling $1.9 million.

Our audit revealed no instances of fraud, and the Program generally operated as the
Commission prescribed. To ensure an effective Program, the Commission issued guidelines
for using and administering purchase cards. Furthermore, cardholders received training
on the use of the card, each cardholder and supervisor approved the monthly statement for
payment, and a card was cancelled when the cardholder separated from the Commission.

                                          13
                                        ig
                            April 2003 SemiAnnual Report




AUDITS—Continued
To strengthen the Program, the OIG made two recommendations to improve controls over
split purchases and clarify the beginning and ending dates of the 30-day purchase limit
cycle. The Commission concurred with our findings, and the planned actions met the intent
of the recommendations.
The Commission completed action on one recommendation, and one recommendation
remains open. A memorandum to all employs confirmed the 30-day purchase card cycle for
all cardholders and approving officials. In addition, the reviewing officials have been
instructed to determine during quality control reviews whether the purchase limit was
exceeded during the billing cycle, determine the cause for any exceeded limit, and to
followup with appropriate action.
Finally, the Commission instructed reviewing officials to detect and address split
purchases. Documentation issued to each cardholder explained the prohibition on split
purchase orders. The “ITC Purchase Card Holder’s Handbook” will be updated to include
the prohibition on split purchase orders.




                                          14
                                                     ig
                                     April 2003 SemiAnnual Report




                                   AUDIT FOLLOW-UP
Pending actions remained open on recommendations reported in the previous Semiannual
Report for the following four audits at the end of the reporting period:

Evaluation of the U.S. International Trade Commission’s Information Security
Program and Practices, OIG-AR-02-02 (September 13, 2002)2
http://www.usitc.gov/oig/OIG-AR-02-02.pdf

The most recent audit—OIG-AR-02-02—resulted in 16 recommendations, all of which
were agreed to by management. We made the recommendations to correct five additional
weaknesses and open recommendations previously reported in OIG-AR-02-01 and
OIG-AR-01-00. In each of the last 3 years, the OIG evaluated the Commission’s information
technology system security. Each new report included follow-up audit work on all open
recommendations from the prior reports.

Of the 16 recommendations, the Commission stated that action was completed on 8
recommendations. However, the OIG does not concur on the resolution of one
recommendation involving the use of social security numbers (SSNs) for user account
identifiers (IDs), as will be discussed below.

The actions taken which satisfy 7 of the 16 recommendations are summarized as follows.
The Commission:

         j Created the Office of the Chief Information Officer (CIO); appointed a
           permanent CIO; assigned information technology, security, and system
           activities to directly report to the CIO; and created performance measures for
           the CIO to successfully resolve open recommendations.

         j Performed a cost benefit analysis for obtaining vendor supplied information
           technology services. The analysis resulted in the award of a contract for the
           development and installation of a new local area network, which should be
           completed in August 2003. The contract’s options provide the Commission with
           flexibility in obtaining future information technology services.

         j Developed and implemented network and database restoration procedures for
           rebuilding network servers and restoring files from backup tapes.

     2 OIG-AR-02-02 included follow-up audit work on all open recommendations from the prior two audits: Evaluation of
the U.S. International Trade Commission’s Information Security Program, OIG-AR-02-01 (September 10, 2001)
http://www.usitc.gov/oig/OIG-AR-02-01.pdf Review of the Commission’s Information Resources Management Function,
OIG-AR-01-00 (September 29, 2000) http://www.usitc.gov/oig/OIG-AR-01-00.pdf


                                                        15
                                         ig
                             April 2003 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
       j Strengthened the network administration procedures. The Information
         Security Officer reviewed vulnerability assessment reports and took corrective
         action. Also, the Office of Information Services reviewed services running on the
         network to determine if they are necessary and took appropriate action. These
         reviews will be performed on a regular basis and the service will be shut down
         when appropriate.
Regarding the use of SSNs as user IDs, the Commission determined through a cost-benefits
analysis that the risk of ID theft to the Commission and its employees was minimal
compared with the cost to modify the travel management system to use other than SSNs
as user IDs. However, a cost-benefits analysis, while prudent, does not mitigate the risk
of ID theft for the Commission and its employees. Further, the Privacy Act of 1974, as
amended, prohibits government agencies from denying individuals any right or privilege
because of the individual’s refusal to disclose his or her SSN. Also, the U.S. Department of
Veterans Affairs uses a similar travel management system supplied by the same vendor
without requiring a SSN for the user ID.
Although the remaining eight recommendations were to have been completed between
January and April 2003, completion dates have been revised to the latter part of FY 2003.
Highlights of these eight recommendations included:
       j Issue a revised directive to ensure consolidation of all information technology
         and system security duties, responsibilities, and functions. (Revised completion
         date: July 30, 2003)
       j Provide technical training; strengthen account and password standards; and
         ensure timely application of patches and fixes. (Revised completion date: August
         30, 2003)
       j Reexamine automated intrusion detection system (IDS) technologies when the
         new network is installed. The Commission performed basic monitoring of
         network activity and determined IDS is cost prohibitive for the current system.
         (Revised completion date: August 30, 2003)




                                            16
                                         ig
                             April 2003 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
Evaluation of the Commission’s Travel Program, OIG-AR-03-02 (September 30,
2002) http://www.usitc.gov/oig/OIG-AR-03-02.pdf
This audit resulted in six recommendations all of which were agreed to by management.
The Commission has completed action on two recommendations. First, the Director of the
Office of Finance has been assigned the responsibility of monitoring travel card use and
payments to ensure the card is used for approved official government travel and expenses
are paid in a timely manner. Supervisors will be notified of violations through procedures
established with the Office of Human Resources. Quality reviews are performed on travel
documentation on a recurring basis by the Office of Finance. Second, an Administrative
Announcement was issued to all Commission employees reminding them of the contents
of the internal directive on personnel disciplinary and adverse action. A followup system
for delinquent accounts has been agreed upon between the Offices of Finance and Human
Resources to monitor the status of cases referred to supervisors. In addition, the Office of
Finance no longer offers centrally billed accounts to Commission employees. Planned
modifications to the Zegato system, made by the Office of Operations, will most likely
address the issue of split disbursements. The Commission currently has prepared and is
reviewing a new travel management system directive and handbook. The OIG has
provided comments on an initial draft. A summary of the three recommendations not yet
implemented is as follows:
       j Revise the official policies and procedures.
       j Strengthen oversight of the travel program.
       j Improve customer service.
Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00.pdf
This audit resulted in 22 recommendations, all of which were agreed to by management.
As of October 1, 2002, 21 recommendations had been implemented. The Commission has
been working with the National Archives and Records Administration, and approval of the
one recommendation is expected. The Commission implemented EDIS-2, and certain
document types can now be filed in electronic form. Also, in some instances parties are
notified by e-mail of the availability of certain documents through the electronic docket.
       j Identify records scanned by EDIS so they can be disposed.




                                           17
                                          ig
                             April 2003 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
Evaluation of the Commission’s Implementation of E-FOIA, OIG-AR-01-01
(March 20, 2001) http://www.usitc.gov/oig/OIG-AR-01-01.pdf
This audit resulted in five recommendations, all of which were agreed to by management.
One recommendation has not yet been implemented, but the Commission has issued a
notice of proposed rulemaking that addressed the recommendation. No comments were
received from the public concerning the notice, but concerns expressed by agency staff
about provisions of the Rule have led to the need to insert additional amendments into the
rulemaking. The draft notice now includes updated citations to the Federal Claim
Collection Standards as well as a draft guide to filing documents in non-adjudicative
investigations, to assist practitioners in understanding the agency’s filing requirements.
Apart from the notice of rulemaking, the guide will be a separate document posted next to
the rules on the Commission’s Internet web site.
       j Amend 19 CFR 201.17-21 to emphasize FOIA affirmative access provisions.
The annual federal register notice has been revised to address availability of the electronic
reading room. This notice is scheduled for March of each year.




                                            18
                                           ig
                              April 2003 SemiAnnual Report




                                  INSPECTIONS

                              Inspection Report List
During this period we issued the following inspection report:
U.S. International Trade Commission’s Occupant                          Emergency Program,
Inspection Report, OIG-IR-01-03
(March 28, 2003) http://www.usitc.gov/oig/OIG-IR-01-03.pdf
Given the September 11, 2001 attacks and subsequent terrorist threats, emergency
preparedness remains critical to ensuring a safe environment in which federal employees
and visitors can conduct their business. The OIG inspected the Commission’s Occupant
Emergency Program (OEP) to determine if it would adequately ensure the safety of
Commission and other occupants at 500 E Street, SW, in Washington, DC.
As the primary occupant agency at a federally leased facility, the Commission took the lead
in exercising emergency management in accordance with the Federal Property
Management Regulations. Of the building’s nine floors, the Commission leases the
majority of the first floor and the third through seventh floors to provide office space for its
365 employees. The Commission also maintains several hearing rooms on the first floor to
conduct business with non-Commission individuals.
The Commission shares the leased building with the Social
Security Administration (SSA) and the National Aeronautic
and Space Administration (NASA). SSA has 128 employees on
the eighth and ninth floors; NASA has 111 contractors on the
second floor.
Our inspection revealed that the Commission actively has led
emergency management at this facility. However, we
suggested additional actions to further safeguard lives and
property. The Commission should develop an official
building-wide OEP for all occupants and obtain agreement to
the plan from other tenants. Emergency procedures should be
readily available and recognizable to all employees.
                                                  The Commission purchased evacuation chairs and provided
                                                  training in their use. Facilities Management Specialist and
                                                  Safety Officer Gary Stanford demonstrates the chair with
                                                  the help of Sylvia Evans from the Office of Unfair Import
                                                  Investigations.


                                             19
                                         ig
                             April 2003 SemiAnnual Report




INSPECTIONS—Continued
Based on General Services Administration (GSA) guidelines and our observations during
an unscheduled emergency evacuation drill, the building-wide OEP should:
       j Provide key officials’ emergency phone numbers in addition to direct office
         numbers;
       j Designate a meeting place away from the building to ensure all occupants have
         safely exited the building;
       j Include information about the building and its occupants, as well as a floor plan
         with the evacuation routes clearly marked;

       j Include procedures for after-hours emergencies; and
       j Ensure all occupants follow procedures when an alarm is sounded.
Finally, the Commission formally should assign Command Center responsibilities and
identify an alternate Command Center site in the event the building must be completely
evacuated.
The response to our inspection indicated the Commission’s commitment to safeguarding
lives and property during an emergency. The Commission’s Office of Human Resources
proposed taking actions to ensure employees and their families continue to receive benefits
support, employees’ emergency contact phone numbers are maintained and available, and
an area is designated for injured employees. Furthermore, the Commission was finalizing
a “shelter in place” plan.


                        Actions on Prior Inspections
U.S. International Trade Commission’s Administration of WestlawR Legal
Research Service, Inspection Report, OIG-IR-02-02 (September 25, 2002)
http://www.usitc.gov/oig/OIG-IR-02-02.pdf
This inspection was completed during the last reporting period. At that time we offered
three suggestions that have been implemented. The Law Librarian performed a cost
benefit analysis of the fixed price plan for WestlawR that included an analysis of accessing
materials through WestlawR that are also available in the Law Library. He also instituted
a more formal usage cost awareness program for the 90 to 100 Commission employees with
workstation access to WestlawR. Also as we suggested, the Law Librarian now receives the
weekly resource transaction report that contains the names of separated employees.

                                            20
                                            ig
                             April 2003 SemiAnnual Report




                              INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.


                          Summary of Investigative Activity
A summary of investigative activity is presented below.
During this reporting period, no new cases were initiated, one case was closed regarding
an alleged inappropriate use of Government travel cards, and one case remains open.



      Case Workload                 Referrals Processed         Investigative Results
 Open (9/30/02)       2       Received              1          Referrals for
                                                               Prosecution              0
 Initiated            0       Referred to
                              Commission            0          Referrals Declined
 Closed               1                                        for Prosecution          0
                              Referred to other
 Open (3/31/03)       1       Federal Agencies      1          Administrative
                                                               Action                   1
                              Evaluated but no
                              Investigation
                              Initiated             0




Misuse of Government Travel Card
An employee used a Citicorp Government Travel Card to charge $2,102.14 for other than
official business travel. Charged personal expenses included restaurants, lodging and a
Mexican vacation package. The employee paid all charges in full.
The employee violated USITC Administrative Notice 2306 Mandatory Use of a
Government Issued Travel Charge Card, by using the Citicorp Travel Card for personal
use.
The supervisor spoke with the employee who agreed not to misuse the Citicorp Government
Travel Card again.

                                             21
                                         ig
                             April 2003 SemiAnnual Report




                           OTHER ACTIVITIES

Regulatory Review
The Inspector General Act, 5 U.S.C. Appendix, Section 4(a)(2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy and efficiency of
programs and operations administered by the Commission.
The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. The OIG reviewed and commented on draft internal
directives on mission and functions statements for the Office of Human Resources; Travel
Management System and Travel Management System Handbook, and an administrative
order on Travel. The OIG reviewed and commented on a Notice of Final Rulemaking and
the Handbook on Electronic Filing Procedures and Guide to Filing Deadlines in
Non-Adjudicative Investigations.


General Accounting Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard
to the activities of the Comptroller General of the United States with a view toward
avoiding duplication and ensuring effective coordination and cooperation. No GAO reviews
regarding the Commission’s activities were initiated or completed during this reporting
period.


Liaison Activities
The Inspector General is one of 28 designated federal entity (DFE) Inspectors General, who
are members of the Executive Council on Integrity and Efficiency (ECIE). Established by
Executive Order 12805 on May 11, 1992, the ECIE is chaired by the Office of Management
and Budget and, in addition to the Inspectors General, includes representatives from the
Office of Personnel Management, the Office of Government Ethics, the Office of Special
Counsel and the Federal Bureau of Investigations.
The Inspector General also participates in activities sponsored by the President’s Council
on Integrity and Efficiency (PCIE), which consists primarily of the Presidentially appointed
Inspectors General. The ECIE and PCIE have identical functions and responsibilities to
promote integrity and efficiency and to detect and prevent fraud, waste and abuse in
federal programs.

                                            22
                                         ig
                             April 2003 SemiAnnual Report




OTHER ACTIVITIES—Continued
The Inspector General has served for more than a year as a member of the PCIE ECIE
Human Resources Committee, where he has led an effort to identify and promote core
competencies for OIG professionals. During this period, he made presentations on this
effort to both the PCIE and the ECIE. In addition to Human Resource Committee activities,
the Inspector General continued to volunteer as an occasional guest instructor for the
Inspectors General Auditor Training Institute. As a Certified Myers Briggs Type
InstrumentR (MBTI) Professional, he facilitated a team building workshop using the
MBTI for multiple Offices of Inspector General in Rosslyn, Virginia.
Acting for the Inspector General, the Assistant Inspector General for Audit (AIGA)
attended the PCIE ECIE Annual Retreat in St. Michaels, Maryland. The AIGA also
became a member of the Financial Statement Audit Network (FSAN) that meets monthly
to discuss potential changes and share experiences related to auditing the financial
statements of their respective federal agencies. During this reporting period, the primary
topic of discussion was providing comments to OMB on their draft financial management
circular, “Super Circular”. This circular would consolidate, establish and update
government-wide policies and procedures related to agencies’ financial and performance
management and reporting.
The AIGA also met with other ECIE officials to discuss the new requirement contained in
the Accountability of Tax Dollars Act of 2002 for small agencies to submit audited financial
statements beginning in FY 2003. Consequently, the AIGA and several other ECIE officials
have informally shared information to assist their respective OIGs and agencies to comply
with the new requirement. Additionally, since an OMB representative discussed the new
requirement and potential criteria for obtaining a waiver at one meeting, the AIGA briefed
the Commission’s Office of Administration on OMB’s presentation.
The Counsel to the Inspector General, as a member of the Inter-agency Ethics Council,
attended the Twelfth Annual Government Ethics Conference at King of Prussia,
Pennsylvania. The conference, sponsored by the U.S. Office of Government Ethics,
featured an update by the Office of Government Ethics’ senior managers and concurrent
sessions covering topics such as contractors, public access issues, working with senior
managers, non-mainstream ethics issues and assessing employees’ satisfaction with the
ethics program.
The Counsel to the Inspector General continued to provide a monthly report to the
Inter-agency Ethics Council on Federal Court cases involving ethics issues. With
participants from other OIG organizations, she also began work to design an ethics training
module for the Inspectors General Auditor Training Institute.

                                            23
                                      ig
                           April 2003 SemiAnnual Report




OTHER ACTIVITIES—Continued
In addition to her professional
contributions to the federal OIG
community, the Counsel to the
Inspector General also participated
as a volunteer tutor for an
elementary school student. The
Commission has adopted Amidon
Elementary School, a neighboring
District of Columbia public school,
for which 19 Commission employees
have volunteered to tutor students
in a variety of subjects.


Management Assistance
The Inspector General advised the
Chairman and other officials about
the requirement to provide audited
financial statements and provided
monthly status briefings for the
Chairman on OIG activities. The
OIG also provided comments to the
Director of Human Resources for the
Message of the Month to all
employees on the subject of
prohibited personnel practices.       Counsel to the IG Jennifer Hepler is one of the Commission’s
                                      volunteer tutors.




                                        24
                                          ig
                            April 2003 SemiAnnual Report




              REPORTING REQUIREMENTS INDEX

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.

CITATION            REPORTING REQUIREMENTS                                             PAGE

Section 4(a)(2)     Recommendations concerning the impact of such legislation or
                    regulations on the economy and efficiency in the administration
                    of programs and operations administered or financed by the
                    Commission                                                           22

Section 5(a)(1)     Description of significant problems, abuses, and deficiencies
                    relating to the administration of programs and operations          None

Section 5(a)(2)     Description of the recommendations for corrective action made
                    with respect to significant problems, abuses, or deficiencies      None

Section 5(a)(3)     Identification of each significant recommendation described in
                    previous semiannual reports on which corrective action has not
                    been completed                                                     15-18

Section 5(a)(4)     Summary of matters referred to prosecutive authorities and the
                    prosecutions and convictions which have resulted                     21

Section 5(a)(5)     Summary of each report made to the head of the establishment
                    under which information or assistance was unreasonably refused     None

Section 5(a)(6)     Listing of each audit report                                         13

Section 5(a)(7)     Summary of each significant report                                 13-14

Section 5(a)(8)     Statistical tables showing Audit Reports-Questioned Costs            26

Section 5(a)(9)     Statistical tables showing Audit Reports-Funds Put to Better Use     27

Section 5(a)(10)    Summary of each audit report issued before the commencement of
                    the reporting period for which no management decision has been
                    made by the end of the reporting period                            None

Section 5(a)(11)    Description and explanation of the reasons for any significant
                    revised management decisions                                       None

Section 5(a)(12)    Information concerning any significant management decision
                    with which the Inspector General is in disagreement                None


                                             25
                                                     ig
                                     April 2003 SemiAnnual Report




                     Table 1
      AUDIT REPORTS WITH QUESTIONED COSTS1
                                                                                                 Dollar Value

                                                      Number of                  Questioned              Unsupported
                                                        Reports                      Costs                    Costs

A.      For which no management decision has
        been made by the commencement of the period             0                            0                      0

B.      Which were issued during the reporting period           0                            0                      0

        Subtotals (A+B)                                         0                            0                      0

C.      For which a management decision was made
        during the reporting period                             0                            0                      0

        (i)       Dollar value of
                  disallowed costs                              0                            0                      0

        (ii)      Dollar value of costs
                  not disallowed                                0                            0                      0

D.      For which no management decision has been
        made by the end of the reporting period                 0                            0                      0

E.      Reports for which no management decision was
        made within six months of issuance                      0                            0                      0




    1 Because in this 6-month period the Commission had less than $3.6 million in contract awards—generally made to GSA
Schedule vendors—the ITC OIG did not perform contract audits that are the basis for mandatory reporting of questioned and
unsupported costs.




                                                        26
                                             ig
                               April 2003 SemiAnnual Report




                     Table 2
     AUDIT REPORTS WITH RECOMMENDATIONS
        THAT FUNDS BE PUT TO BETTER USE
                                                                Number of   Dollar
                                                                  Reports    Value

A.   For which no management decision has been made by
     the commencement of the period                                    0        0

B.   Which were issued during the reporting period                     0        0

     Subtotals (A+B)                                                   0        0

C.   For which a management decision was made during the
     reporting period                                                  0        0

     (i)     Dollar value of recommendations that were
             agreed to by management                                   0        0

     (ii)    Dollar value of recommendations that were
             not agreed to by management                               0        0

D.   For which no management decision has been made by the
     end of the reporting period                                       0        0

E.   Reports for which no management decision was made within
     six months of issuance                                            0        0




                                                27
                                         ig
                            April 2003 SemiAnnual Report




                                    GLOSSARY
The following definitions apply to the terms used in this report.


Questioned Cost             means a cost that is questioned by the Office because of:
                            (1) an alleged violation of a provision of a law, regulation,
                            contract, grant, cooperative agreement, or other agreement or
                            document governing the expenditure of funds; (2) a finding
                            that, at the time of the audit, such cost is not supported by
                            adequate documentation; or (3) a finding that the expenditure
                            of funds for the intended purpose is unnecessary or
                            unreasonable.

Unsupported Cost            means a cost that is questioned by the Office because the
                            Office found that, at the time of the audit, such cost is not
                            supported by adequate documentation.

Disallowed Cost             means a questioned cost that management, in a management
                            decision, has sustained or agreed should not be charged to the
                            Government.

Recommendation              means a recommendation by the Office that funds could be
that funds be put           used more efficiently if management of an establishment took
to better use               actions to implement and complete the recommendation,
                            including: (1) reduction in outlays; (2) deobligation of funds
                            from programs or operations; (3) withdrawal of interest
                            subsidy costs on loans or loan guarantees, insurance, or
                            bonds; (4) costs not incurred by implementing recommended
                            improvements related to the operations of the establishment,
                            a contractor or grantee; (5) avoidance of unnecessary
                            expenditures noted in preaward reviews of contract or grant
                            agreements; or (6) any other savings which are specifically
                            identified.




                                           28
                      ig
           April 2003 SemiAnnual Report




    Special thanks to the Office of Publishing
        for the production of this report:

     Keven Blake: Cover design and photography

Pamela Dyson: Report design and composition services

      Printing Operations: Reproduction service




                        29
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                      IGHotline@usitc.gov
                               or
                  EthicsLine 1--800--500--0333
                               or
              http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                             Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
